A

p.n

x A

IN THE COURT OF APPEALS OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI
Plaintiff-Appellant,

v.
MICHAEL J. BUSEMAN PC and MICHAEL BUSEMAN
Defendants-Respondents.
Lane County Circuit Court No. 20CV20202
Court of Appeals No. A174786
ORDER OF DISMISSAL
On October 13, 2020, appellant filed a notice of appeal from an order denying a
motion to waive the Sheriffs service fee entered September 29, 2020. Thereafter, on
November 16, 2020, appellant filed notice of appeal from the general judgment entered
November 3, 2020. Both notices of appeal name Michael J. Buseman PC, and Michael
J. Buseman, as respondents on appeal. In both notices of appeal, appellant states that
he did not serve the notice on respondents because they were not served and did not
appear below.
A notice of appeal must be filed and served within 30 days of the date the order
or judgment on appeal is entered in the register. Under ORS 19.270(2)(a), timely
service of the notice of appeal on "all parties identified in the notice of appeal as
adverse parties" is jurisdictional and may not be waived or extended. Any attempt at
serving respondents now would be well past the 30 days after entry of judgment.
Because appellant failed to timely serve respondents as required pursuant to ORS
19.270(2), this court lacks jurisdiction.
Therefore, the court, on its own motion; dismisses the appeal.
Appeal dismissed.

L.
THERESA M. KIDD
APPELLATE COMMISSIONER
2/9/2021 11:49 AM

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Respondent
Costs: No costs allowed
c: Hamid Michael Hejazi
Michael J Buseman

ej

ORDER OF DISMISSAL
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1
/

II
I

l

i

II
lir

A ??-

B

Ai X

►

II
II
i

II
i

4

i
\1-

1

<!

II
.}

IN THE SUPREME COURT OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI,
Plaintiff-Appellant,
Petitioner on Review,
v.
MICHAEL J. BUSEMAN PC and MICHAEL BUSEMAN
Defendants-Respondents,
Respondents on Review.
Court of Appeals
A174786
S068457
ORDER DENYING REVIEW
Upon consideration by the court.
The court has considered the petition for review and orders that it be denied.

MARTHA L WALTERS
CHIEF JUSTICE, SUPREME COURT
5/20/2021 10:48 AM

c: Michael J Buseman
U-temid Michael Hejazi
ms

ORDER DENYING REVIEW
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

